HHS/OIG, Audit - "Review of Long-Term Care Hospital Classification -
Kindred Hospital South Florida," (A-04-07-00029)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Long-Term Care
Hospital Classification - Kindred Hospital South Florida," (A-04-07-00029)
June 12, 2008
Complete
Text of Report is available in PDF format (217 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For fiscal year 2006, Kindred Hospital South Floridas
(Kindred) average Medicare inpatient length of stay exceeded 25 days.  Thus,
Kindred complied with Federal regulations governing average length of stay, and
its classification as a long-term care hospital (LTCH) was proper.  Hospitals
classified as LTCHs must have an average Medicare inpatient length of stay of
greater than 25 days, which includes all Medicare covered and noncovered days
and omits all Medicare leave and pass days.  However, hospitals that were
excluded from the prospective payment system in 1986 were subject to a different
length of stay requirement.  These hospitals must have an average inpatient
length-of-stay for all patients of greater than 20 days.  Kindred was subject to
the 25 day average length-of-stay requirement.  The Centers for Medicare &
Medicaid Services, which administers the Medicare program, directed the Medicare
fiscal intermediaries to verify that LTCHs complied with Federal requirements.
Because Kindred complied with Federal regulations, we are
not offering any recommendations.